No. 20-256
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ZAVIAN MUNIZE JORDAN, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 3rd day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,571 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 3, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 3, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0256
JORDAN, ZAVIAN MUNIZE
USA

DAVID DEBOLD
GIBSON, DUNN & CRUTCHER LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-955-8551
DDEBOLD@GIBSONDUNN.COM
MARCIA G. SHEIN
LAW FIRM OF SHEIN & BRANDENBURG
2392 NORTH DECATUR RD.
DECATUR, GA 30033
404-633-3797
MARCIA@MSHEINLAW.COM
TIFFANY R. WRIGHT
HOWARD UNIVERSITY SCHOOL OF LAW
2900 VAN NESS STREET, NW
WASHINGTON, DC 20008
202-806-8082
TIFFANY.WRIGHT@ORRICK.COM

